BECKER GALLAGHER
Briefs

Supreme Court of the United States
United States Courts of Appeals

and Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Petition for Writ of Certiorari in Michael D.

Ellis v. Liberty Life Assurance Company of Boston, a
New Hampshire corporation, was sent via Next Day

Service to the U.S. Supreme Court, and via Next Day
and e-mail service to the following parties listed below,
this 8th day of January, 2021:
Byrne J. Decker
Ogletree Deakins
2 Monument Square, 7th Floor
Portland, ME 04101
(207) 387-2963
b.decker@ogletree.com
Kristina Holmstrom
Ogletree Deakins
2415 East Camelback Road, Suite 800
Phoenix, AZ 85016
(602) 778-3700
kristina.holmstrom@ogletree.com
Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED
(800) 890.5001

www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Matthew W .H. Wessler
Jonathan E. Taylor
Counsel of Record
Gupta Wessler PLLC
1900 L Street NW
Suite 312
Washington, DC 20036
(202) 888-17 41
jon@guptawessler.com
Shawn E. McDermott
Timothy M. Garvey
McDermott Law, LLC
4600 S Ulster Street
Suite 800
Denver, CO 80237
(303) 964-1800

Counsel for Petitioner

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing i true and correct. This Certificate is
executed on January 8, 2021.

Donna J. Wolf
t:)
Becker Gallagfi.e r Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

